In The
Supreme Court of the United States
Walter C. Lange,
Petitioner
v.
Commissioner of Internal Revenue
Respondent

CERTIFICATE OF SERVICE
day 0f July, 2019, printed copies of the foregoing
I hereby certify that on the
Petition for Writ of Certiorari, with postage prepaid for first class delivery or better, were:
(1.) filed with the Clerk of Court for the Supreme Court of the United States, by
depositing 40 bound copies and one not bound with the United States Postal Service (USPS) for
priority delivery to Clerk, Supreme Court of the United States, 1 First Street, NE Washington,
DC 20543,
(2.) sent to Counsel for Respondent/Appellee by depositing 3 copies with the USPS for
priority delivery to Gretchen M. Wolfinger (lead counsel), U.S. Department of Justice, Tax
Division, P.O. Box 502, Washington, DC 20044, phone (202) 616-7611, and
(3) sent to the Solicitor General of the United States by depositing 3 copies with the
USPS for priority delivery to the Solicitor General of the United States, Room 5616, Department
of Justice, 950 Pennsylvania Ave. N. W., Washington, DC 20530-0001.
Pursuant to 28 USC 1746: I declare under penalty of perjury under the laws of the United
States of America that the foregoing is true and correct.
Executed on

Walter C. Lange

